®mteb States Court of appeals;
for tfje Jftftf) Circuit
A True Copy
Certified order issued Feb 26, 2021
W. OomOl.
Clerk, U.S. Court of Ap peals, Fifth Circuit

No. 19-20717

Michael Geoffrey Peters
Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division
Respondent—Appellee.

Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:18-CV-645

ORDER:
IT IS ORDERED that Appellant’s motion to dismiss for lack of
subject-matter jurisdiction, count no. 3 of the indictment, is DENIED.
IT IS FURTHER ORDERED that Appellant’s motion for discovery
is DENIED.
IT IS FURTHER ORDERED that Appellant’s motion for federal
protection against the State of Texas is DENIED.
IT IS FURTHER ORDERED that Appellant’s motion for a
certificate of appealability is DENIED. In a lengthy opinion, the district

i'

^/O

✓

V
19-20717

court rejected Peters’s claims because they were unexhausted, procedurally
defaulted, or failed on the merits. Peters request for a certificate of
appealability does not address the reasons listed by the district court. He
instead argues he is actually innocent, but even if that could overcome some
of the procedural rulings, Peters has not shown that any newly discovered
evidence would make it more likely than not that no juror would have
convicted him. Because Peters has not shown that the district court’s ruling
is debatable, a certificate of appealability should not issue.
*

IT IS FURTHER ORDERED that Appellant’s motion to admit new
evidence with unfiled supplemental documents is DENIED.
IT IS FURTHER ORDERED that Appellant’s emergency request for
relief is DENIED.
IT IS FURTHER ORDERED that Appellant’s motion for whistle
blowers protections against state retaliation is DENIED.
IT IS FURTHER ORDERED that Appellant’s motion to expedite the
appeal is DENIED.
IT IS FURTHER ORDERED that Appellant’s motion for bail
pending appeal is DENIED.
IT IS FURTHER ORDERED that Appellant’s motion for the
removal of the strikes obtained is DENIED.
IT IS FURTHER ORDERED that Appellant’s motion to appoint
counsel and a private investigator is DENIED.
IT IS FURTHER ORDERED that Appellant’s motion to change
venue is DENIED.
IT IS FURTHER ORDERED that Appellant’s motion for special
emergency injunctive relief is DENIED.

2

19-20717

IT IS FURTHER ORDERED that Appellant’s motion for an
evidentiary hearing upon reversal is DENIED.
IT IS FURTHER ORDERED that Appellant’s motion to curb
criminal interference by the defendants stopping the submittal of Appellant’s
evidentiary exhibits from being submitted to the Fifth Circuit is DENIED.
IT IS FURTHER ORDERED that Appellant’s motion for leave to
submit supplemental evidence is GRANTED.
IT IS FURTHER ORDERED that Appellant’s motion for leave to
submit supplemental evidence with unfiled supplemental document is
GRANTED.
IT IS FURTHER ORDERED that Appellant’s motion to admit
supplemental evidence is GRANTED.

Gregg Costpj
United States Circuit Judge

3

Case: 19-20717

Document: 00515780553

Page: 1

Date Filed: 03/15/2021

fHmteb States Court of appeals!
for tfje Jftftf) Circuit
No. 19-20717

Michael Geoffrey Peters,
Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division
Respondent—Appellee.

Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:18-CV-645

BeforeJONES, Costa, andWiLSON, Circuit Judges.
Per Curiam:
A member of this panel previously denied appellant’s motions to dismiss for
lack of subject-matter jurisdiction, for discovery, for federal protection
against the State of Texas, for a certificate of appealability, to admit new
evidence, for emergency request for relief, for whistle blowers protection
against State retaliation, to expedite the appeal, for bail pending appeal, for
removal of strikes obtained, to appoint counsel and a private investigator, to

Case: 19-20717

Document: 00515780553

Page: 2

Date Filed: 03/15/2021

No. 19-20717

change venue, for special emergency injunctive relief, for an evidentiary
hearing upon reversal, and to curb criminal interference by the defendants
stopping the submittal of Appellant’s evidentiary exhibits from being
submitted to the Fifth Circuit.
IT IS ORDERED that the motion is DENIED.

2

.\
\

■

United States District Court
Southern District of Texas

ENTERED
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
MICHAEL GEOFFREY PETERS,
TDCJ #2019190,
Petitioner,
V.

LORIE DAVIS,
Respondent.

§
§
§
§
§
§
§
§
§
§

September 26, 2019
David J. Bradley, Clerk

CIVIL ACTION NO. H-18-645

OPINION AND ORDER
State inmate Michael Geoffrey Peters (TDCJ #2019190) filed a petition for a
writ of habeas corpus by a person in state custody under 28 U.S.C. § 2254.
Respondent, Lorie Davis, filed a motion for summary judgment. Peters (hereinafter,
“Petitioner”) filed a response.
I.

Background and Petition
On October 21, 2014, a Montgomery County grand jury returned an

indictment against Petitioner in Case No. 14-07-08207-CR, charging him with three
counts of retaliation. Dkt. ##43-21 at 31. On April 27, 2015, the trial court called
the case to begin pre-trial motions and voir dire and Petitioner’s attorney
(hereinafter, “Duckworth”) announced that Petitioner had again determined that he
wanted to fire Duckworth and represent himself. See Dkt. #43-14 at 4-16. After
discussing the issue with Petitioner, the trial court allowed Petitioner to represent
1

himself and trial commenced with voir dire. Id.

Shortly thereafter, Petitioner

reinstated Duckworth as counsel. Id. at 77. On April 30, 2015, a jury found him
guilty of counts one and three. See Dkt. #45-35 at 276. 281. As a result, the 221st
District Court in Montgomery County, Texas, entered a judgment against Petitioner
for thirty-five years’ imprisonment. Id. Petitioner appealed the judgment and the
Texas Ninth District Court of Appeals affirmed the judgment on June 1, 2016. See
Dkt. #43-3.
The intermediate appellate court summarized the facts presented at trial, as
follows:
Lieutenant Wakeman with the Texas Rangers testified on behalf
of the State. In June of 2014, the Montgomery County District
Attorney’s Office contacted Wakeman regarding “a potential threat
towards Judge Tracy Gilbertf,]” and the district attorney’s office
advised Wakeman “of some videos that had been posted on YouTube
that were threatening in naturef]” and available to the public. Wakeman
explained that in the YouTube videos the speaker identified himself as
Peters and provided his name and address. After Wakeman compared
the driver’s license photograph of Peters to the videos, she determined
that Peters was the individual in the YouTube videos. Wakeman
testified that according to the videos, Peters “had had some sort of a ...
divorce and a child custody trial [ ]” in Judge Gilbert’s family court,
and Peters “was, obviously, not pleased with the outcome.”
The State introduced into evidence Exhibit 1 which included a
compilation of many hours of Peters’s YouTube videos. Peters made
no objections to the admission of Exhibit 1. Several segments of the
videos were played for the jury. Wakeman testified that the YouTube
videos were posted online starting around February 2013, when
Peters’s family law case was still pending, and the YouTube videos
continued to be posted online through June 22,2014. Wakeman agreed
that Peters was “lashing out” at Judge Gilbert, a doctor from Houston
and her husband, another judge who also presided over Peters’s case,
2

the Texas Medical Board, Governor Perry, and the Baylor Medical
System.
One portion of Exhibit 1 that was played for the jury included a
YouTube video posted by Peters on February 21, 2013. Wakeman
identified Peters as the person in the video. Wakeman explained that
Peters appeared to be talking about his divorce case in the 418th District
Court. Wakeman testified that another YouTube video dated March 17,
2013, and posted by Peters, was titled “Lies and Fraud and Children’s
Medical Records[,]” wherein Peters spoke about picketing at Texas
Children's Hospital and that the hospital served him with a no trespass
warning for the hospital. According to Wakeman, a May 31, 2013
YouTube video posted by Peters was titled “This is a Promise[.]”
Wakeman was concerned about the “This is a Promise” video because
it was directed at a doctor at Texas Children’s Hospital who Peters
claimed had done something thaLangered him with respec.t.to_th e-family—
law case. Wakeman testified that the video post amounted not just to a
threat, but constituted a “promise [.]” Wakeman also testified about the
nature of other videos. According to Wakeman, in some of the
YouTube videos Peters often would ask people to donate money, Peters
talked about a doctor with whom he was upset and who had treated his
son, and Peters made requests such as asking the President to “clean
up” the “corruption” in Texas courts and thejnedical-systeiri>Wakeman
testified that one ofThe two viBeoFshe was contacted about initially
was titled “Please help me decide if I should go to prison[,]” and it was
posted on June 10, 2014. A segment of that video was also played for
the jury. Wakeman explained that this video stood out because “the title
in and of itself says something that, basically, he’s considering going to
prison for something[,]” and that a person has to commit a crime to go
to prison.
A portion of another video, also dated June 10, 2014, titled
“Stealing children through lies[,]” was also played for the jury.
Wakeman explained that therein Peters states that “whatever I do next
I am sure will have serious consequencesf ]” and that Peters will “[r]isk
[his] life again like [he] did in Iraq.” Wakeman agreed that these
statements sounded like he was making the statements in a threatening
manner. Wakeman also agreed that Peters’s statements that “You
wonder why people go nuts in this Country, all of a sudden they go off;
... you’re not stealing my son and getting away with it,” and, “You give
me very little choice and I can’t sit back and let you steal my only
son[,]” appeared to be a threat to the people Peters believed had
3

&

wronged him. Additional segments of other YouTube videos from
Exhibit 1 were played for the jury, including part of a video posted June
13, 2014, titled “Judge Tracy Gilbert child molester[.]”
According to Wakeman, the district attorney’s office also
notified Wakeman about an online comment by a person with the same
profile picture as Peters’s YouTube account. Wakeman said the
comment was posted to a Yahoo news article about two Las Vegas
police officers who had been ambushed and killed by two gunmen.
Wakeman testified that Peters’s comment “call[ed] the people who had
killed the police officers heroes and stated that he wished he would have
been there to see the blood run from their veins, or their bodies, their
stinking bodies[.]” According to Wakeman, she factored this comment
into her investigation because its violent nature, coupled with the videos
Peters had posted, “gave sort of [an] indication what his state of mind
was at that point.” Wakeman testified that there had been “[a]n
escalation in events from the first videos that were posted on YouTube
through the date of the last phone calls to Judge Gilbert’s house.”
Wakeman learned that Peters had called Gilbert’s residence on
y ^ June_14..-20141 and that Peters spoke with Gilbert’s wife. Wakeman
spoke with Judge Gilbert’s wife about the phone call. Judge Gilbert also
advised Wakeman that Peters called Gilbert’s residence again on July
26..-2QJ4, and Judge Gilbert told Peters not to call his residence ag^ain.
^^Wakcman explained that Judge Gilbert told Wakeman that Peters called
two more times that day and left two messages. Judge Gilbert
'-Wakeman, each snowing a display ot a
.ree pho
telephone number that registered on Judge Gilbert’s caller ID when
Peters called Judge Gilbert’s home. Judge Gilbert also provided
Wakeman with two audio recordings of the voicemail messages Peters
left. Phone records for a phone number in the name of “Michael
P
<5P§tirs[,]” were admitted into evidence. Wakeman testified that she
listened to the two voicemails and that in one of the voicemails it
sounded like the caller said, “see you soon.” According to Wakeman,
the phone number on Judge Gilbert’s caller ID matched Peters’s phone
number and the phone records showed calls from Peters’s phone
number to Judge Gilbert’s phone number on July 26, 2014. After
reviewing Peters’s YouTube videos, Wakeman was able to identify
Peters as the caller that had left the voicemails.
Wakeman agreed that when determining whether Peters was a
legitimate threat, she considered the YouTube videos, the statements
Peters made in the past, the comments regarding other people involved,
4

